Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




FOSTERING EQUITY IN PATIENT
ACCESS TO TRANSPLANTATION:

Local Access to Liver Transplantation




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 1999
                      OEI-01-99-00470
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston Office prepared this report under the direction of Mark R. Yessian, Ph.D., Regional
Inspector General. Principal OEI staff included:

REGION                                                                         HEADQUARTERS

Russell W. Hereford, Ph.D., Project Leader                           Alan Levine, Program Specialist
Maria E. Maddaloni, M.A., Program Analyst




         To obtain copies of this report, please call the Boston Regional Office at 617-565-1050
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                      EXECUTIVE SUMMARY

PURPOSE
The purpose of this inquiry is to clarify the extent to which local access to liver transplants exists.

BACKGROUND
In April, 1998, the Department of Health and Human Services issued a final rule governing the
operation of the Organ Procurement and Transplantation Network (OPTN) and providing for
greater equity in the distribution of organs. Following publication of that regulation, extensive
debate ensued about the effect it might have. In October, 1998, Congress delayed the
regulation’s implementation for one year, pending a study by the Institute of Medicine. The IOM
released that report in July, 1999.

The debate over the regulation accentuated concerns about local access to transplantation.
Transplant physicians and patient advocates cited the advantages of receiving a transplant at a
local center, including a nearby support system of family and friends, and avoidance of financial
costs associated with having to travel to a distant center. Some claimed that the regulation could
lead to closure of small transplant centers and deprive patients of local access.

Our purpose in this report is to examine the validity of the perception that widespread local access
to a transplant center exists. We provide information on the geographic configuration of the
nation’s liver transplant centers and the factors that contribute to that configuration.

Our inquiry focuses on liver transplant centers because much of the attention surrounding the
regulation has addressed liver transplantation. We use data from the 1998 Annual Report of the
U.S. Scientific Registry of Transplant Recipients and the Organ Procurement and
Transplantation Network. We draw on interviews with transplant professionals, a review of
literature, and testimony from the Department’s 1996 public hearings on liver allocation policy.

FINDINGS
Liver Transplant Centers Are Concentrated Geographically. The 117 liver transplant
centers cluster around major metropolitan areas. This pattern leaves large portions of the United
States population at considerable distance from a transplant center. This distribution has changed
little in recent years.

        In 1997, more than 80 percent of liver transplants were performed in just 35 cities; 77 of
        the 117 liver transplant centers were located in cities with two or more liver transplant
        centers.




                                           )))))))))))
Local Access to Liver Transplantation          -1-                                       OEI-01-99-00470
        In 1997, 15 States had no liver transplant center within their borders; 45 percent of the

        U.S. population lived outside of metropolitan areas with liver transplant centers.

        Most new liver transplant centers have opened in areas where a liver transplant center

        already operated.


Liver Transplants Are Concentrated Among a Few Centers. A small number of transplant
centers account for the great majority of all liver transplants performed. Many smaller transplant
centers have been operating for several years at low volume.

        In 1997, 20 transplant centers, located in 18 cities, performed more than half of all liver
        transplants.

        Our review of the data found that many of the smaller transplant centers have been
        operating at a relatively low volume for a number of years. 29 of the 36 centers that
        performed 12 or fewer transplants in 1997 have been in operation since 1992 or earlier.

Fundamental Factors Constrain Broader Geographic Distribution of Liver Transplant
Centers.

        Limited Number of Organs for Transplant. The shortfall between the number of livers
        available and the number of patients seeking a transplant means that the supply of organs,
        not of centers, determines the number of transplants that can be performed.

        Relationship between Volume and Quality. One key criterion that purchasers use in
        contracting with transplant centers is the number of transplants that a center has
        successfully performed. For example, to receive Medicare certification a center must
        perform at least 12 transplants per year.

        Costs of a Transplant Center. Establishing a liver transplant center is a costly venture for
        a hospital, requiring experienced and skilled surgical, medical, and support personnel.

        Role of Academic Medical Centers. Liver transplant centers are affiliated with academic
        medical centers and large teaching hospitals which tend to cluster around urban centers.

CONCLUSION
In the debate over the Department’s regulation on organ allocation, concerns were raised that the
regulation could hinder local access to liver transplantation. The assumptions underlying this
concern are that such local access is of value and that it generally exists. Our study does not draw
conclusions about the value of local access to liver transplant centers. Arguments can be made
about both the advantages and disadvantages of local, but generally low volume transplant
centers, versus high volume centers that draw patients from a broader geographic area.



                                          )))))))))))
Local Access to Liver Transplantation         -2-                                      OEI-01-99-00470
However, the study does show that the assumption about the availability of local access is flawed.
Widespread local access to liver transplant centers is a myth. National policies on organ
allocation are not likely to affect the overall distribution of transplant centers one way or the
other. Instead, basic factors other than allocation policy affect this access, including the shortage
of organs, the relationship between the number of transplants and patient outcomes, the high costs
of running a transplant center, and the housing of liver transplant programs in urban academic
medical centers. The Institute of Medicine reinforced this point in its recent report, when it noted
it “did not find credible evidence that broader sharing or the Final Rule [the Department’s
allocation regulation] would result in the closure of smaller transplant centers.”




                                          )))))))))))
Local Access to Liver Transplantation         -3-                                     OEI-01-99-00470
                              TABLE OF CONTENTS


                                                                                                                                   PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS

 ! Geographic Concentration of Liver Transplant Centers . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


 ! Concentration of Liver Transplants Among a Few Centers . . . . . . . . . . . . . . . . . . . . . . . . 10


 ! Constraints on Broader Geographic Distribution of Liver Transplant Centers . . . . . . . . . . 11



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES

A:	       Number of Liver Transplant Centers and Total Number of Transplants Performed by City,

          1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


B:        Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





                                                          )))))))))))
Local Access to Liver Transplantation                         -4-                                                       OEI-01-99-00470
                                 INTRODUCTION

Purpose

The purpose of this inquiry is to clarify the extent to which local access to liver transplants exists.

Background

For the past decade, the Office of Inspector General has maintained an active interest in this
nation’s organ allocation and transplantation system. Our work has been guided by three
underlying tenets that the Congress spelled out in the National Organ Transplant Act:

C       An equitable system, with each person on a transplant waiting list having an equal
        opportunity to receive a transplant subject to established medical criteria;
C       A national system adhering to uniform policies and standards; and
C       A cooperative system based on the best interests of patients waiting for transplantation.
In April, 1998, the Department issued a final rule governing the operation of the Organ
Procurement and Transplantation Network (OPTN) and providing for greater equity in the
distribution of organs.1 Following publication of that regulation, extensive debate ensued about
the effect it might have. In October, 1998, the Congress delayed the implementation of this
regulation for one year,2 pending a study by the Institute of Medicine (IOM). The IOM issued that
report in July, 1999.3

Local Access to Transplant Services

The debate over the regulation accentuated concerns about local access to transplantation. The
significance of local access to transplantation came to light in comments during three days of
public hearings that the Department of Health and Human Services held in December, 1996, to
examine organ allocation policies.

One transplant surgeon typified these concerns when he said, “We do not want to change
allocation in such a way that access is denied to our indigent populations, to our minority
populations, and to people who can’t afford to travel to large regional transplant centers. There is
no need to transport livers and patients long distances for a technology and a procedure that is
available to them in their own backyards.”

Transplant physicians and patient advocates cite two key benefits to local access. Some claimed
that the regulation could lead to closure of small transplant centers and deprive patients of these
advantages.

        < Local support. Transplantation requires interaction and participation with a patient’s
        family and loved ones. In its advice to patients on “Which Hospital is Best for You?” the
        United Network for Organ Sharing (which holds the OPTN contract) urges patients to
        consider “the support systems you will have in that area (your family, friends).”4 Another

                                           )))))))))))
Local Access to Liver Transplantation          -5-                                       OEI-01-99-00470
        speaker at the 1996 hearings, describing her transplant, summarized this concern by
        saying, “Because I had my transplant at home, my family was able to be with me. They
        gave me tremendous support and encouragement. They learned my medicines along with
        me. . . It is not merely that having the transplant regionally was convenient, I don’t believe
        that I would have lived without the emotional support of my family.”

        < Financial impact. Transplantation in a distant city is very costly. Even if a patient’s
        insurance covers travel and lodging expenses, it still may be insufficient. Another speaker
        at the hearings noted, “My husband would have been with me regardless of the distance,
        at a cost of missing almost 7 weeks of work. For many families, the expense and
        disruption of being far away from home, job, and schools would be too much.”

        The UNOS lists the following non-medical costs as items that patients should consider:
        - Transportation to and from your transplant center, before and after your transplant;
        - Food, lodging, long distance phone calls for you and your family;
                - Child care;
        -	 Lost wages if your employer does not pay for the time you or a family member spends
                away from work;
        - If your transplant center is not near your home, you may need to live near the center
                before and for a while after your transplant. Some centers offer free or low cost
                lodging
        -	 You may need to make arrangements for air travel to get to your transplant hospital
                quickly. You should also make back-up plans to get to your transplant hospital in
                bad weather, especially in the winter.5

This Inquiry

This inquiry examines the validity of the perception that widespread local access to a transplant
center exists. Our aim is to contribute to current discussions about desirable organ allocation
policies by clarifying the extent to which access to liver transplants is, in fact, localized
geographically, both currently and in recent years. We do not speculate as to the allocation rule’s
impact on local access. To a large extent, that impact would depend on the details of the
allocation rules adopted by the OPTN. Instead, this inquiry provides information on the
geographic configuration of the nation’s liver transplant centers and the factors that contribute to
that configuration.

We focus on liver transplant centers because liver allocation has been the focus of controversial
changes proposed by the OPTN in 1996 and 1997. Consequently, much of the attention and
discussion surrounding the rule has focused on livers,6 and the regulation included special
transition provisions governing liver allocation specifically.

Data Source

Our inquiry utilizes data from the 1998 Annual Report of the U.S. Scientific Registry of
Transplant Recipients and the Organ Procurement and Transplantation Network, published in
May 1999. This report provides data on transplant center volume from 1988 through 1997. We

                                          )))))))))))
Local Access to Liver Transplantation         -6-                                      OEI-01-99-00470
also draw on interviews with professionals in the transplantation field, a review of literature, and a
review of testimony from the December, 1996, public hearings on liver allocation policy.

We conducted this inspection in accordance with the Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                          )))))))))))
Local Access to Liver Transplantation         -7-                                      OEI-01-99-00470
                                                  FINDINGS

Liver transplant centers are concentrated geographically. The 117 liver transplant centers
cluster around major metropolitan areas. This pattern leaves large portions of the United States
population at considerable distance from a transplant center. This distribution has changed
little in recent years.

        < In 1997, more than 80 percent of liver transplants were performed in just 35 cities;
        77 of the 117 liver transplant centers were located in cities with two or more liver
        transplant centers.

Of the 35 cities that account of 80 percent of liver transplants, 29 contained more than one
transplant center. Chicago and Philadelphia house five transplant centers each. As Table 1
shows, in six other cities — Boston, Houston, Los Angeles, New Orleans, New York, and
St. Louis — four transplant centers operate.7

                                           Table 1
                        Number of Liver Transplant Centers by City, 1997
              Number of               Number of            Number of             Percent of All
          Transplant Centers            Cities             Transplants            Transplants
                                                           Performed              Performed
                    5                       2                    415                    10 %
                    4                       6                    880                    21
                    3                       2                    296                      7
                    2                      19                  1,173                    28

                    1                      39                  1,404                    34
                  Total                    68                  4,168                   100 %
         Source: 1998 Annual Report of the U.S. Scientific Registry of Transplant Recipients and the
         Organ Procurement and Transplantation Network


In addition to the 29 cities with multiple transplant centers, half a dozen other cities — Miami,
Omaha, Gainesville, Birmingham, Madison, Palo Alto — have one large transplant center. The
centers in these six cities performed 15 percent of the nation’s transplants.

Appendix A presents city-specific information on the number of centers and number of transplants
performed in these cities.

        < In 1997, 15 States had no liver transplant center within their borders.




                                                   )))))))))))
Local Access to Liver Transplantation                  -8-                                             OEI-01-99-00470
In assessing geographic access to transplantation, it is useful to examine areas in which transplant
centers are not located. The 15 States that had no liver transplant center include the upper Great
Plains, as well as the Northern New England States.8 Figure 1 shows the geographic distribution


                                              Figure 1
                      Distribution of Liver Transplant Centers by State, 1997




                                                                 States with liver transplant centers
                                                                 States without liver transplant centers



of States with and without a transplant center. Between 20 percent and 28 percent of persons
receiving a liver transplant traveled outside of their State of residence to receive the transplant.9

        < 45 percent of the U.S. population lived outside of metropolitan areas in which liver
        transplant centers are located.

In addition to rural areas, a number of sizeable cities did not have a local transplant center. For
example, among the nation’s 25 largest cities, Las Vegas, Nevada; Jacksonville, Florida; El Paso,
Fort Worth, and Austin, Texas; and Fresno, California, did not have liver transplant centers.10

        < Most new liver transplant centers have opened in cities where a liver transplant center
        already operated.

Between 1992 and 1997, there was a net increase of 13 liver transplant centers; 15 centers began
operation (and two ceased operations). Of the 15 new liver transplant centers, 9 centers opened
in cities where at least one liver transplant center was already operating. Three of the new centers
opened in New Orleans, where one was in operation; and two of the new centers opened in Los
Angeles, where two centers already were operating.11



                                           )))))))))))
Local Access to Liver Transplantation          -9-                                         OEI-01-99-00470
The remaining six liver transplant centers that opened in 1993 or later are in cities that did not
already have a transplant center. In some cases, such as Westchester County, New York, and
Irvine, California, these new centers are near cities with existing liver transplant centers. In other
cases, such as Albuquerque or Sacramento, the nearest liver transplant center is at some distance.

Thus, although the number of liver transplant centers did increase during these years, clearly the
expansion that took place did little to expand geographic access to transplantation.

Liver transplants are concentrated among a few transplant centers. A small number of
transplant centers account for the great majority of all transplants performed. Many smaller
transplant centers have been operating for several years at low volume.

        < In 1997, 20 of the 117 transplant centers performed more than half of all liver
        transplants.

These 20 transplant centers are located in 18 cities. Philadelphia and New York each have 2
centers in this tier of large centers. Of the remaining 16 cities, 6 cities have only one transplant
center, and 10 cities have two or more transplant centers.

In almost all of these cities, one dominant center provides the great majority of transplants. Only
in Chicago and Philadelphia — each with five transplant centers — does the largest center
perform less than 50 percent of all liver transplants in those cities. In the other cities, with the
exception of San Francisco, the largest center provides more than 80 percent of all liver
transplants performed in those cities.

                                                    Table 2
                                      Liver Transplants Performed in 1997,
                                     Grouped by Transplant Center Volume

             Number of Liver                Number of         Total Number of                Percent of All
         Transplants Performed by           Centers in           Transplants                  Transplants
                  Center                     Group           Performed by Group           Performed by Group

                More than 100                      6                  1,042                          25 %

                     50-99                       19                   1,315                          32
                     25-49                       35                   1,249                          30

                     13-24                       21                     405                          10
                      1-12                       26                     157                           4

                 0 (inactive)                    10                        0                          0

                     Total                      117                   4,168                         100 %
         Source: 1998 Annual Report of the U.S. Scientific Registry of Transplant Recipients and the Organ
         Procurement and Transplantation Network



                                                   )))))))))))
Local Access to Liver Transplantation                  -10-                                                  OEI-01-99-00470
While a few centers provide the largest share of transplants, also striking is the large number of
centers that provide very few transplants (see Table 2). To receive Medicare certification a liver
transplant center must perform 12 transplants per year.12 In 1997, 36 centers did not provide this
number and were not Medicare certified.13 Another 21 centers provided between 13 and 24
transplants.

Thus, almost half — 57 of 117 liver transplant centers — performed fewer than 25 transplants per
year, or no more than two per month.

        < Our review of the data found that many of the smaller transplant centers have been
        operating at a relatively low volume for a number of years.

29 of the 36 centers that performed 12 or fewer transplants in 1997 have been in operation since
1992 or earlier. Transplant centers that perform a low volume of transplants are typically found in
cities with more than one transplant center, or in close proximity to a city or cities with a liver
transplant center.

It should be noted that some of the small centers are located at children’s hospitals that are
affiliated with adult transplant centers at other hospitals and that may share the same staff, even
though they are identified as separate transplant centers. However, many of the centers
performing a low volume of transplants have been established for many years and are not affiliated
with another transplant center.

Fundamental factors constrain a broader geographic distribution of liver transplant
centers.

        < Limited number of organs for transplant. The shortfall between the number of livers
        available for transplantation and the number of patients seeking a transplant means that
        the supply of organs, not of centers, determines the number of transplants that can be
        performed.

Although over 13,000 registrants are waiting on the liver transplant list, just over 4,400 liver
transplants are performed annually.14 Between 1988 and 1997, the number of cadaveric donors
increased by 34 percent, while the number of registrants on the liver transplant list increased by
550 percent. In 1998, the number of organ donors increased 5.6 percent, the largest increase
since 1993; yet there were still fewer than 5,800 cadaveric organ donors. Clearly, opportunities
exist for increasing the number of donors, both through improved identification of potential
donors and increases in the rate of consent for donation.

Recent Departmental efforts may address this constraint and lead to an increase in the number of
organ donors. One effort is the National Organ and Tissue Donation Initiative. The goals of this
initiative are to increase consent to donation, maximize donation opportunities, and learn more
about what works to increase donation and transplantation through carefully designed research
efforts.



                                          )))))))))))
Local Access to Liver Transplantation         -11-                                    OEI-01-99-00470
A second effort is revised Medicare Conditions of Participation governing hospitals. This
provision requires hospitals to notify their organ procurement organization (OPO) of all patient
deaths. This provision also requires specifically that a representative of the OPO, or someone
trained by an OPO-approved course, initiate the request for organ donation, as a way of seeking
to improve consent rates for donation.15

        < Relationship between volume and quality. One key criterion that purchasers use in
        contracting with transplant centers is the number of transplants that a center has
        successfully performed.

Purchasers typically assess a center’s performance using graft and patient survival on a substantial
number of patients. Generally speaking, for highly complex procedures such as liver
transplantation, a minimum volume is associated with higher quality. As we note above, a center
must perform 12 liver transplants per year to receive Medicare certification. In addition, the
United Network for Organ Sharing (UNOS), advises patients “to consider many things about the
hospital you are considering including the number of transplants the hospital has done.”16

Organ procurement professionals also told us of difficulty that arises in trying to place organs at
smaller transplant centers. They indicated that these centers are highly selective about the organs
that they will accept for patients. One consequence of this selection process is adding time to the
process of finding a recipient which, in turn, can make the organ less viable if it is refused at that
center and offered to another patient elsewhere.

Published peer reviewed research on the correlation between volume of transplants performed and
outcomes is limited. The Health Care Financing Administration, in issuing a regulation on
Medicare coverage of lung transplants, cited a study that found that patient mortality following
liver transplantation in the United States is a function of center transplant volume.17 With respect
to heart transplants, research has shown poorer outcomes for very small transplant centers.18 On
the other hand, during the December 1996 hearings, a number of small and medium size transplant
centers pointed out that smaller centers also have high quality outcomes.19

Managed care organizations contract with a limited number of transplant centers, which
determines where their enrollees may receive a transplant. We interviewed representatives of
national managed care organizations to understand the performance criteria they use to select
these centers. The individuals we interviewed indicated that transplant center volume and
outcomes are important factors that their plans use in selecting transplant centers. In their
assessment, these quality measures outweigh geographic proximity for patients.

        < Costs of a transplant center. Establishing a liver transplant center is a costly venture
        for a hospital, requiring experienced and skilled surgical, medical, and support
        personnel.

Start-up costs for a liver transplant center are high. In our interviews with transplant
professionals, such as staff of OPOs where no liver center exists, they cite the economics of the
decision as being the major deterrent.


                                           )))))))))))
Local Access to Liver Transplantation          -12-                                     OEI-01-99-00470
We did not attempt to calculate the cost to a hospital of opening a transplant center, but per
patient charges can provide some indication of the expense of this procedure. Medicare charges
for 562 Medicare liver transplant patients in 1997 averaged $160,000, not including professional
fees.20 Total per case billed charges in 1994 averaged $286,000 including hospital and
professional fees,21 and $314,500 in 1996 including the first year of followup care.22

        < Role of academic medical centers. Liver transplant centers are affiliated with
        academic medical centers and large teaching hospitals which tend to cluster around
        urban centers.

Liver transplantation is a highly sophisticated procedure. Transplantation began as innovative and
experimental procedures in research and academic medical centers; transplant centers continue to
be housed at these institutions, where the critical mass of personnel with the necessary skills
locate. Transplantation requires cooperation and coordination among medical and surgical staff,
as well as transplant management teams.

Because of the complexity of liver transplantation and the resources required to support a
transplant center, academic medical centers continue to house liver transplant centers. The
nation’s 124 medical schools are located in 99 cities and in 45 States; most are located in urban
areas. The cities and States with multiple liver transplant centers tend to be those which have
more than one medical school, such as Boston, New York, and Los Angeles.




                                         )))))))))))
Local Access to Liver Transplantation        -13-                                    OEI-01-99-00470
                                    CONCLUSION 

In the debate over the Department’s regulation on organ allocation, concerns were raised that the
regulation could hinder local access to liver transplantation. The assumptions underlying this
concern are that such local access is of value and that it generally exists. Our study does not draw
conclusions about the value of local access to liver transplant centers. Arguments can be made
about both the advantages and disadvantages of local, but generally low volume transplant
centers, versus high volume centers that draw patients from a broader geographic area.

However, the study does show that the assumption about the availability of local access is flawed.
Widespread local access to liver transplant centers is a myth. Liver transplant centers are highly
concentrated geographically. This concentration existed in the early days of liver transplantation,
when there were very few centers. Even as the number of liver transplant centers has increased,
they continue to cluster in a relatively few cities. For the most part, new liver transplant centers
have not moved into previously underserved geographic areas.

Some basic forces sustain that distribution of transplant centers: The reality of a limited supply of
organs; the relationship between volume of transplants performed and patient outcomes; the high
cost of starting and running a transplant center; and the tendency for liver transplant programs to
be housed in academic medical centers, which are concentrated in urban areas. In fact, these
inherent forces suggest that the overall distribution of liver transplant centers is not likely to
change much one way or the other, irrespective of the shape of national policies on organ
allocation. The Institute of Medicine reinforced this point in its recent report, when it noted it
“did not find credible evidence that broader sharing or the Final Rule [the Department’s
allocation regulation] would result in the closure of smaller transplant centers.”23

Our work on organ allocation and donation is continuing.




                                          )))))))))))
Local Access to Liver Transplantation         -14-                                     OEI-01-99-00470
                                        APPENDIX A 

                             Number of Liver Transplant Centers and 

                       Total Number of Transplants Performed by City, 1997

                   City and State         Number of   Total number of transplants
                                           centers     performed in all centers
                   Los Angeles, CA           4                   322
                   New York City, NY         4                   258
                   Pittsburgh, PA            3                   227
                   Chicago, IL               5                   215
                   Philadelphia, PA          5                   200
                   Miami, FL                 1                   197
                   San Francisco, CA         2                   130
                   Dallas, TX                2                   124
                   Boston, MA                4                   112
                   Rochester, MN             2                   105
                   Omaha, NE                 1                   101
                   Cleveland, OH             2                   100
                   Gainesville, FL           1                    99
                   St. Louis, MO             4                    90
                   Atlanta, GA               2                    89
                   Birmingham, AL            1                    86
                   Madison, WI               1                    72
                   Baltimore, MD             2                    70
                   Houston, TX               4                    69
                   Denver, CO                3                    69
                   Palo Alto, CA             1                    67
                   Seattle, WA               2                    62
                   Richmond, VA              2                    60
                   Portland, OR              2                    58
                   Cincinnati, OH            2                    55
                   Ann Arbor, MI             1                    55
                   Indianapolis, IN          2                    51
                   Newark, NJ                1                    51
                   Chapel Hill, NC           1                    50
                   San Antonio               1                    48
                   Nashville, TN             1                    45
                   Oklahoma City, OK         2                    42
                   San Diego, CA             2                    42



                                            )))))))))))
Local Access to Liver Transplantation           -15-                                OEI-01-99-00470
                   City and State        Number of   Total number of transplants
                                          centers     performed in all centers
                   Rochester, NY            1                    42
                   Milwaukee, WI            2                    41
                   Iowa City, IA            1                    40
                   Salt Lake City, UT       2                    36
                   Falls Church, VA         1                    36
                   Memphis, TN              2                    32
                   Durham, NC               1                    32
                   Minneapolis, MN          1                    32
                   Charleston, SC           1                    30
                   New Orleans, LA          4                    29
                   Columbus, OH             2                    29
                   Louisville, KY           2                    28
                   Kansas City, KS          1                    28
                   Tampa, FL                1                    28
                   Lackland AFB, TX         1                    26
                   Detroit, MI              1                    25
                   Charlottesville, VA      1                    24
                   Irvine, CA               1                    24
                   Sacramento, CA           1                    24
                   Tucson, AZ               1                    21
                   Lexington, KY            1                    20
                   Shreveport, LA           2                    19
                   Charlotte, NC            1                    19
                   Valhalla, NY             1                    19
                   Loma Linda, CA           1                    11
                   New Haven, CT            1                    11
                   Albuquerque, NM          1                    10
                   Hartford, CT             1                     8
                   Honolulu, HI             1                     7
                   Kansas City, MO          1                     6
                   Hershey, PA              1                     5
                   Washington, DC           1                     5
                   Galveston, TX            1                     0
                   Lubbock, TX              1                     0
                   Phoenix, AZ              1                     0
                   Total                   117                4,168



                                           )))))))))))

Local Access to Liver Transplantation          -16-                                OEI-01-99-00470

                                        APPENDIX B

                                             Endnotes

1. 63 Fed. Reg. 16,295-16,338, April 2, 1998.

2. P.L. 105-277, § 213.

3. Institute of Medicine, Organ Procurement and Transplantation (Washington D.C.: National
Academy Press, 1999).

4. Http://www.unos.org/patients/101_hospital.htm

5. Http://www.unos.org/patients/101_finance_costs.htm

6. “The transplantation community is divided, on allocation policy in general and specifically on
liver allocation.” (emphasis added). 63 Fed. Reg., 16,311, April 2, 1998.

7. In fact, if one looks more broadly at metropolitan areas, rather than cities, the concentration is
even more striking. For example, our analysis lists only one liver transplant center in Washington,
D.C., although another center operates at a Inova Fairfax Hospital in Fairfax, Virginia, roughly 12
miles away. Likewise, we do not include Westchester County Medical Center in the analysis for
New York City; the Stanford University center in Palo Alto in the San Francisco analysis, nor the
centers at University of California at Irvine or Loma Linda University as part of the Los Angeles
metropolitan area; nor two centers in New Haven and Hartford, Connecticut.

8. The 15 States without liver transplant centers are Alaska, Arkansas, Delaware, Idaho, Maine,
Mississippi, Montana, North Dakota, New Hampshire, Nevada, Rhode Island, South Dakota,
Vermont, West Virginia, and Wyoming. In addition to these 15 States, the centers in Hawaii
(where the transplant center performed 7 liver transplants in 1997) and New Mexico (where the
transplant center performed 10 transplants in 1997) are not Medicare certified.

9. UNOS data supplied by the Division on Transplantation, Health Resources and Services
Administration. This data base contains records on 4,084 patients receiving a liver transplant in
1997 (excluding patients from Puerto Rico and Guam). At least 824 (20 percent) of these
patients were transplanted outside their State of residence, and the State of residence was not
identified for another 342 (8 percent) of patients.

10. U.S. Bureau of the Census, Population Estimates Program, Population Division, Table MA-
96-8, “Estimates of the Population of Metropolitan Areas (ranked by 1996 Population),”
at http://www.census.gov/population/estimates/metro-city/ma96-08.

11. The other cities with new centers that already had centers are Chicago, Baltimore, Salt Lake
City, and Louisville.




                                          )))))))))))
Local Access to Liver Transplantation         -17-                                    OEI-01-99-00470
12. The regulation also requires a 77 percent 1-year survival rate, and a 60 percent 2-year
survival rate for patients.

13. Two of these 36 centers received Medicare certification in 1998.

14.Http://www.unos.org/Newsroom/critdata_main.htm. Data are current as of July 14, 1999.

15. 63 Fed. Reg. 63, p. 33,875, June 16, 1998.

16. Http://www.unos.org/patients/101_hospital.htm

17. 60 Fed. Reg., 6,540, Feb. 2, 1995. The study, by Erick B. Edwards et al., was presented to
the Fifteenth World Congress of the Transplantation Society at Kyoto in 1994. The study is
currently under review for publication. This paper is based on data from 1987 through 1991, or
relatively early in the life of many liver transplant centers. It is, therefore, possible that the
outcomes could be different if more current data were used.

18. Henry Krakauer et al., “The Relationship of Clinical Outcomes to Status as a Medicare-
Approved Heart Transplant Center,” Transplantation, 58: 6 (March 27, 1995): 840-846. This
study used Medicare certification (12 transplants per year) as an independent variable.

Jeffrey D. Hosenpud et al., “The Effect of Transplant Center Volume on Cardiac Transplant
Output, JAMA 271:23 (June 15, 1994): 1844-1849. This study found an increased risk of
mortality among centers performing fewer than nine transplants per year.

19. Department of Health and Human Services, “Report on December 10-12, 1996 Public
Hearings to Examine Allocation Policies for Liver Transplantation.”

20.Health Care Financing Administration, From the 100% Medpar Inpatient Hospital Fiscal Year
1997, “Short Stay Inpatient by State For National DRGs.”

21. Statement of Roger Evans, at December 1996 Public Hearing on Liver Allocation Policies.

22. Richard H. Haubodlt, “Cost Implications of Human Organ and Tissue Transplantation, an
Update: 1996,” Milliman and Roberts, Inc., at http://www2.milliman.com/milliman/publications/
reports/hrr16/averagecharges.html.

23. Institute of Medicine, p. 42.




                                         )))))))))))
Local Access to Liver Transplantation        -18-                                    OEI-01-99-00470
